   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




June 25, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review of Charles Drew Health Center, Inc.
                (A-07-10-02753)


The attached final report provides the results of our limited scope review of Charles Drew
Community Health Center, Inc. This review is part of an ongoing series of reviews performed
by the Office of Inspector General (OIG) to provide oversight of funds provided by the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-07-09-02753 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        RESULTS OF
  LIMITED SCOPE REVIEW OF
       CHARLES DREW
    HEALTH CENTER, INC.




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-07-10-02753
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program. The HRSA health centers are
community-based and patient-directed organizations that serve populations with limited access to
health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points, increased demand for services (IDS), facilities investment
program, and capital improvement program (CIP). Recovery Act grants were provided to both
new and existing health centers; moreover, a center was permitted to receive more than one type
of grant.

Charles Drew Health Center, Inc. (CDHC), has provided health care to families at four different
locations in metropolitan Omaha, Nebraska, since 1983. On March 17, 2009, CDHC applied for
Recovery Act IDS grant funding in the amount of $334,290 to retain five key staff positions.
According to CDHC’s application for IDS funds, the grant would enable CDHC to serve 432
new uninsured and 232 underinsured patients in metropolitan Omaha, Nebraska. On
March 27, 2009, HRSA awarded CDHC an IDS grant in the amount of $334,290.

On June 2, 2009, CDHC applied for Recovery Act CIP grant funding in the amount of $681,400
to purchase a practice management and electronic health records system. According to CDHC’s
application for CIP funds, the grant would enable CDHC to improve efficiency, ensure Health
Insurance Portability and Accountability Act compliance, and improve patient safety and quality
of care. On June 25, 2009, HRSA awarded CDHC a CIP grant in the amount of $681,400.

OBJECTIVE

Our objective was to assess CDHC’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.



                                               i
RESULTS OF REVIEW

Based on our assessment, we believe CDHC is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in CDHC’s financial
management: deteriorating cash position, untimely bank account reconciliations, absence of
written policies and procedures for adherence to Federal Deposit Insurance Corporation limits,
inadequate segregation of duties, non-performance of fixed asset inventory counts, and an
improper documentation of sliding fee discounts.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing CDHC’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDHC neither agreed nor disagreed with our findings,
but it described corrective action that it had implemented to address each of our findings.
CDHC’s comments are included in their entirety as the Appendix.

After reviewing CDHC’s comments, we maintain that our findings are valid.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Health Center Program .................................................................................1
              Charles Drew Health Center, Inc. ........................................................................1
              Requirements for Federal Grantees .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATION...............................................................................4

          WEAKNESSES IN FINANCIAL MANAGEMENT .....................................................4
              Deterioration in Cash Position .............................................................................4
              Untimely Bank Account Reconciliations.............................................................5
              Absence of Written Policy for Adherence to Federal Deposit Insurance
                 Corporation Deposit Insurance Limits ............................................................5
              Inadequate Segregation of Duties ........................................................................5
              Fixed Asset Inventory Count Not Performed ......................................................6
              Improper Documentation of Sliding Fee Discounts ............................................6

          RECOMMENDATION ...................................................................................................7

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .......7


APPENDIX

          AUDITEE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points, increased demand for services (IDS), facilities investment
program, and capital improvement program (CIP). Recovery Act grants were provided to both
new and existing health centers; moreover, a center was permitted to receive more than one type
of grant.

Charles Drew Health Center, Inc.

Charles Drew Health Center, Inc. (CDHC), has provided health care to families in metropolitan
Omaha, Nebraska, since 1983. Health care services provided include family practice, internal
medicine, pediatrics, obstetrics/gynecology, pharmacy, radiology, eye services, minor surgery,
cardiology and podiatry. CDHC provides health services at four Omaha locations, including two
primary care clinics and two homeless program centers. In 2008, CDHC served 12,328 patients
and facilitated 43,029 patient visits.

Additionally, over a dozen special programs are conducted at CDHC’s facilities and through
outreach programs and satellite centers. These programs include education, prevention, and
health care in the areas of infant mortality; sexually transmitted diseases; the supplemental
nutrition program for Women, Infants and Children; homeless health care; human

                                                1
immunodeficiency virus testing and counseling; optical services; pharmacy services; behavioral
health; and social services.

The CDHC Foundation was established to serve as a related-party fundraiser for CDHC. The
CDHC Foundation is governed by its own Board of Directors which oversees the foundation’s
fundraising activities, but which does not participate in the governance or operation of CDHC.
The CDHC Foundation and CDHC file separate tax returns with the Internal Revenue Service,
but the two entities are combined for financial statement purposes.

On March 17, 2009, CDHC applied for Recovery Act IDS grant funding in the amount of
$334,290 to retain five key staff positions. According to CDHC’s application for IDS funds, the
grant would enable CDHC to serve 432 new uninsured and 232 underinsured patients in
metropolitan Omaha, Nebraska. On March 27, 2009, HRSA awarded CDHC an IDS grant in the
amount of $334,290.

On June 2, 2009, CDHC applied for Recovery Act CIP grant funding in the amount of $681,400
to purchase a practice management and electronic health records system. According to CDHC’s
application for CIP funds, the grant would enable CDHC to improve efficiency, ensure Health
Insurance Portability and Accountability Act compliance, and improve patient safety and quality
of care. On June 25, 2009, HRSA awarded CDHC a CIP grant in the amount of $681,400.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. Federal regulations also require grantees to deposit
and maintain advances of Federal funds in insured accounts whenever possible (45 CFR
§ 74.22(i)(2)).




                                                  2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess CDHC’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

Scope

We conducted a limited review of CDHC’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of
CDHC’s internal control structure. Rather, we performed limited tests and other auditing
procedures on CDHC’s financial management system to assess its ability to administer federally
funded projects.

We performed our fieldwork at CDHC’s administrative office in Omaha, Nebraska, during
January 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance, to include HRSA program and
        policy announcements;

   •    obtained and reviewed CDHC’s HRSA grant application packages and supporting
        documentation;

   •    interviewed CDHC personnel to gain an understanding of its accounting systems and
        internal controls;

   •    reviewed CDHC’s audited financial statements and supporting documentation for the
        period September 1, 2007, through August 31, 2008;

   •    reviewed CDHC’s unaudited financial statements, IRS Forms 990, and supporting
        documentation for the period September 1, 2007, through August 31, 2009;

   •    performed ratio analyses of CDHC’s financial statements;

   •    evaluated CDHC’s fiscal procedures related to accounting documentation and preparation
        of financial reports;

   •    evaluated CDHC’s current program operations;



                                               3
   •   reviewed CDHC’s administrative procedures related to personnel, record-keeping,
       conflict resolution, and other non-financial matters;

   •   reviewed minutes from CDHC’s Board of Directors meetings; and

   •   provided a summary of our findings to CDHC’s management on February 11, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, we believe CDHC is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in CDHC’s financial
management: deteriorating cash position, untimely bank account reconciliations, absence of
written policies and procedures for adherence to Federal Deposit Insurance Corporation limits,
inadequate segregation of duties, non-performance of fixed asset inventory counts, and an
improper documentation of sliding fee discounts.

WEAKNESSES IN FINANCIAL MANAGEMENT

Deterioration in Cash Position

Pursuant to 45 CFR § 74.21(b)(3)), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes.
The combined CDHC and CDHC Foundation cash and equivalents balance decreased by
approximately 62 percent between August 31, 2008, and November 30, 2009. In addition,
during the same period, CDHC’s number of days’ operating expenses covered by cash balance
decreased from 22 days to 11 days.

CDHC recently established two lines of credit: a $600,000 line of credit, opened on
December 2, 2009, of which $300,000 was outstanding as of January 26, 2010; and a $100,000
line of credit, opened on September 4, 2009, of which $96,000 was outstanding as of
December 30, 2009.

However, CDHC’s current ratio was 1.26 as of November 30, 2009. Current ratio is a measure
of liquidity which is calculated by dividing an entity’s current assets by its current liabilities. A
current ratio in excess of 1.00 suggests that a company would be able to pay off its obligations if
they came due at that point. In addition, CDHC had fixed assets, net of depreciation, of
$5,304,025 and no outstanding long-term debt. CDHC’s decreasing cash balance, which we
noted at the time of our fieldwork, was partially attributable to the payoff of a mortgage loan

                                                  4
related to a building renovation and expansion completed in 2007. CDHC management
indicated that CDHC’s cash position should improve as new medical personnel hired during the
expansion are able to establish a larger patient base. Thus, we concluded that CDHC’s
deterioration of cash position was a temporary condition that did not appear to put into doubt the
entity’s long-term status as a viable and going concern.

Untimely Bank Account Reconciliations

Pursuant to 45 CFR § 74.21(b)(3)), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes.

CDHC did not reconcile its operating account bank statement to the general ledger account
balance in a timely manner. As of January 20, 2010, the CDHC operating account had been
reconciled only through September 30, 2009. Untimely reconciliation of bank accounts could
lead to delay or inability to detect accounting inaccuracies and/or misappropriation of assets by
theft or fraud.

Absence of Written Policy for Adherence to Federal Deposit Insurance Corporation
Deposit Insurance Limits

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes. In
addition, pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain
advances of Federal funds in insured accounts whenever possible. Federal Deposit Insurance
Corporation (FDIC) policy states that deposits owned by a corporation, partnership, or
unincorporated association are insured up to $250,000 at a single bank.

CDHC’s written cash management policy did not include policies and procedures to ensure that
cash balances did not exceed federally insured limits. CDHC exceeded the $250,000 FDIC
account limit by as much as $456,000 for a two-day period in September 2009. Funds that
exceed FDIC limits are subject to an increased risk of loss in the event of a bank failure.

Prior to the completion of our audit fieldwork, CDHC revised its written cash management
policy to include policies and procedures that would adequately address FDIC insurance limits.

Inadequate Segregation of Duties

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
can adequately safeguard all such assets and assure they are used solely for authorized purposes.
In addition, pursuant to 42 USC § 254b(l)(3)(D) and 45 CFR §§ 74.14, 74.21, and 74.26, a health
center must maintain separate functions appropriate to organizational size to safeguard assets and
maintain financial stability.



                                                  5
CHDC staff did not adequately segregate financial management duties in the following high-risk
areas:

   •   Cash Receipts: The Accountant performs custody, recording, and reconciliation duties
       related to cash receipts. These duties should be performed by separate individuals to
       ensure the integrity of the cash receipts function.

   •   Cash Disbursements: The Chief Financial Officer has access to perform both the
       authorization and the recording duties related to cash disbursements. These duties should
       be performed by separate individuals to ensure the integrity of the cash disbursements
       function.

Inadequate segregation of duties could result in delay or inability to detect accounting
inaccuracies and/or misappropriation of assets by theft or fraud.

Fixed Asset Inventory Count Not Performed

Pursuant to 45 CFR § 74.21(b)(3)), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes. In
addition, 45 CFR §§ 74.34(f)(3) and 74.44(a) require grantees to establish written procurement
procedures and to maintain inventory control systems and take periodic physical inventory of
grant-related equipment.

CDHC did not perform any fixed asset inventory counts during 2008 and 2009. (As stated
earlier, CDHC had fixed assets, net of depreciation, of $5,304,025 as of November 30, 2009.)
Nonperformance of fixed asset inventory counts could lead to a misstatement of fixed asset
balances in financial statements and/or a delay or inability to detect misappropriation of assets by
theft or fraud.

Improper Documentation of Sliding Fee Discounts

Pursuant to 42 CFR § 51c.303(f), health centers must have a system in place to determine
eligibility for patient discounts adjusted on the basis of the patient’s ability to pay. Discounts in
the fees for medical services that are based upon the extent to which the patient is able to pay
those fees are commonly referred to as sliding fee discounts.

CDHC had a system in place to determine eligibility for sliding fee discounts; however, prior
testing performed by CDHC’s independent auditor found that CDHC could not provide proper
supporting documentation for all of the sliding fee discounts that CDHC had granted.

At the time of our site visit, CDHC was in the process of implementing revisions to its sliding
fee discount policies and procedures in response to the independent auditor’s finding. Because
the timing of the implementation coincided with our site visit, we were unable to test the revised
policies and procedures to determine whether the independent auditor’s prior audit finding was
satisfactorily resolved.

                                                  6
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing CDHC’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDHC neither agreed nor disagreed with our findings,
but it described corrective action that it had implemented to address each of our findings.
CDHC’s comments are included in their entirety as the Appendix.

After reviewing CDHC’s comments, we maintain that our findings are valid.




                                              7
APPENDIX
                                                                                            Pagelof4


                  APPENDIX: AUDITEE COMMENTS 





                                                                       2915 Grant Street:
                 Charles Drew Health Center, Inc,                      P. O. Box 111609
                   "Growing A Heafthy Community"                Omaha, Nebraska 68111
                                                             Health Center 402.451.3553
                                                             Administration 402 .457.1200
                                                                        fax 402.457. 1220
                                                               ChariesOrewHCOmaha.Ol'9


May 14,2010

Mr. James Kom, Aud it Manager
Region VlI
60 I East lih Street, Room 0429
Kansas City, Missouri 64106

Dear Mr. Kom:

RE:    Respo nse to the U.S. Department of Health & Hu man Service
       Office of Inspector General (o(G) Draft Report
       Draft Report: Result of Limited Scope Review of Charles Drew Health Center
       Dated May 2010; Report Numbe r: A-07-1O-027S3

After an extensive review and discussion of the DRAFT report presenting by the
Department of Health & Human Services, Office o f (nspector Ge neral (O IG), Results o f
Limited Scope Rev iew of Charles Drew Health Center, Inc., and a complete review o f the
final repon, the CDHC senior level administrative team have taken the findings under
consideration and preparc.-d the foHowing responses to each recommendation. Pleasc note
that documcntatio n to su pport all responses is available upon request.

Finding - Dete rioration in Cash Position
          • 	 Finding - The combined CD HC and CDHC Foundation cash and
              equivalents balance decreased by approximately 62 percent between
              August 31, 2008, and Novembe r 30, 2009. In add ition, during the same
              period, CDHC's number o f day's operating expenses covered by cash
              balance deercas<..u fro m 22 days to II days.

             • 	 Response In compliance with the 2010-11 Notice o f Grant Award,
                 Charles Drew Health Center prepared a Recovery Plan based on projected
                 cash flows for the purpose of improving its financial position and for
                 complying wit h 1·IRSA 's financial guidelines. The plan was submitted
                 May 5, 2010. HRSA has reviewed the plan and a telephone conference
                 will he held Wednesday, May 12,2010 at 12:00 noon (CSn to discuss the
                 plan.
                                                                                                    Page2of4




c •• ,1n 0 ",.. lIulob C • • r", IDt. - II80CS004.J1l



Finding - Untimely Bank Account ReconciJiatio o
          • 	 Finding - CDHC did not reconcile its operating account bank statement to
              the general ledger account balance in a timely manncr.

                 • 	 Response The reconciliation for Ihe operating account bank !>1atement
                     fo r Septcmber 30, 2009 has been complctcd and as of April 2010, the
                     CDHC operating account has been reconciled to the general ledger.

                      Beginning May I, 2010, the CEO will meel monthly with the CFO, the
                      accountant and the accounting staff to insure that all bank reconciliations
                      are completed for the previous month. failure to meet expectatiollS of
                      timely rcconciliation will be addressed and documentcd through
                      establ ished CDHC personnel policies and procedures and the annual
                      pcrfonnanec evaluation process.

Finding - Absence or Wri tten Policy fo r a dhercnce to Fede ral Dcposit Insura nce
Corpor:dion Deposit Ins unm ce L.imits
          • 	 Finding - CDHC's written cash management policy did not include
              policies and procedures to ensure that cash balances did not exceed
              federally insurc limits.

                 • 	 Response - Prior to the completion of the audit fieldwork, the CDHC
                     wri tten cash management policy was revised to include policies and
                     procedures Ihat ensured that cash balances did not exceed the specified
                     fcderal illSured limits of$250,OOO. A copy of the policy is available upon
                     request.

Finding - I nadequa te Segregatio n or Duties
           • 	 Finding - CDHC stafT did not adequately segregate financial management
               duties in thc following high-risk areas: (I) Cash Receipts - the accountant
               perfonns custody, recording, and reconciliation duties related to cash
               receipts; and (2) Cash Dishursements - Ihe chief fi nancial officer has
               access to pcrfonn both the authorization and thc recording duties relate<! to
               cash disbursements.

                 • 	 Response - Effective March 19, 2010, the accountant's duties for custody
                     and recording cash receipts was reassigned to the accounting clerks. In
                     addition, all blank check stock is no longer secured by the CFO. Blank
                     check stock is now secured by thc CEO in a lockcd cabinet in thc CEO's
                     office. Only building security has keyed access to the CEO's office and
                     only thc CEO has access to the secured cabinet.

                       In addition, the CEO has accessed the gcncrallcdgcr security systcm and
                       amended the system so that the CFO no longer has access/rights to the
                       accounts payablc systcm.




                                                        2
                                                                                       Page30f4




       CDHC has plans to hire another accountant during FY2011 to assist with
       specific accounting functions with the goal of further segregating financ ial
       management duties.

Finding - Fixed Asset Invento ry Count Not Performed
   • 	 Finding - CDHC did not perform any fixed asset inventory counts during
       2008 and 2009.

   • 	 Response - As of Apri l 20, 2010, a fixed asset inventory was completed of
       all CDHC assets. A COPY of the completed inventory is available upon
       ~. According to law, CDHC will conduct a review every other year.
       The next fixed asset inventory will be completed on or before April 30,
       2012.

Finding - Sliding Fee Program
   • 	 Finding - CDUC had a system in place to determine e ligibility for sliding
       fee discoun ts; however, prior testi ng performed by CDHC's independent
       auditor found that CDHC cou ld not provide proper supponing
       documentatio n for all of the sliding fee discounts that CDHC had granted.

   • 	 Response The CDHC Sliding Fee pol icy has been amended. On May 5,
       2010 CDHC submitted a copy of its revised policy to HRSA as a pan of
       jts 2010- 11 Notice of Grant Award conditions. A copy of the current
       C DUC Sliding Fee oolicy is available uPOn request.

       The amended policy states that the Business Officer Coordinator will
       review all slid ing fee documentation on a daily basis prior to submitting it
       to fil e. Funher, procedures have been implemented to emphasize to front
       desk staff, as a part of its mandatory meetings, the imponance of retaining
       all documentation required for determining patient eligibility. In addition,
       as a check and balance procedure, the Directo r of Finance will conduct an
       audit each month to ensure proper documentation is on file.

       Failure to meet expectations of timely review of sliding fce documentation
       and/o r retention of documentation for determining patient eligibility will
       be addressed and documented through established CDHC personnel
       policies and procedures and the annual performance evaluation process.




                                     J
                                                                                          Page4of4




Cb...... Orr.o lIullb Ctat.., 11K. - II80CS06OlJ



If you have questions or require additional information and documentation, please feel
free to contact me at (402 457-1200 ext. 236 or via email at richard b@cdhcmeQicai.com.
You may also contact Mr. Calvin McGruder, CDHC Chief Financiai Officer. Mr.
McGruder can be reached at (402) 457-121 5 or via email at calvinmrdlcdhcmedical.com.


S~ . . /7~
Ri~h.                 D., FACHE
Chief Executive Officer

Cc:       Calvin McGruder, CDHC Chief Financial Officer
          Julieta Clarke, CDHC Board President
          CDHC Board of Directors




                                                   4
